                  CLOSEOUT MEMORANDUM FOR M 99040020

    On 2 April 1999, we received a copy of an e-mail letter from the complainant1 that
    contained an allegation of misconduct in science. He alleged that the subject2plagiarized
    (intellectual theft) two of the complainant's ideas, which he used in a paper3presented at
    a conference, and, which he later published without appropriately citing the complainant
    as the source of these ideas. The complainant said that he had published these ideas in an
    electronic journal4 several months prior to the conference. In this same e-mail, the
    complainant also discussed how his ideas were "essentially identical" to the subject's, but
    that he "prefer[edIw his approach to that of the subject's. The subject's work reported at
    the conference was supported, in part, by NSF.'

In our review of the allegation, we observed that the subject, in an earlier co-authored
        acknowledged the complainant and explained in a short note that their approaches
differed. We asked an outside expert to evaluate the allegation.' The expert concluded
that the ideas in question were the same in the two papers. However, the ideas were not
unique to either the complainant or the subject, but were general ideas discussed by many
scientists in this field. The expert provided us with a partial list of publications by other
scientists concerning these same ideas. He also noted that the complainant acknowledged
in his e-mail that there were differences between the complainant's and the subject's
approach. We concluded that this allegation had no substance because the ideas were not
unique to the complainant and the approaches used by the complainant and the subject
were different.
                                                            >
 his inquiry is closed and no further action will be taken.
cc: Integrity, IG




4

s NSF award-ntitledd




    allegation.
                     --
                                    -
  The complainant's ideas were publishe-


                                                                    d-            the subject,
                                                         The achowledgment to the compla&ant




                                           Page 1 of 1                              M 99-20
